Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141
STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

88858

AFFIDAVIT OF SERVICE

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 5th day of May 2021 deponent served 3 copies of the within

BRIEF OF THE MAINE STATE TROOPERS ASSOCIATION, THE MAINE STATE LAW ENFORCEMENT ASSOCIATION,
THE MAINE ASSOCIATION OF POLICE, AND THE NEW YORK CITY DETECTIVE INVESTIGATORS ASSOCIATION
AS AMICI CURIAE IN SUPPORT OF PETITIONERS
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Christopher C. Taub
Office of the Maine Attorney General
8 State House Station
Augusta, ME 04333
(207)-828-8585

Scott Joseph Lynch
Lynch 6 Van Dyke. P.A.
281 Ash Street
PD Box 118
Lewiston, ME 04240
(207) 788-8841

Attorneys for Petitioner

Attorneys for Respondent

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America that the foregoing is true and

correct, executed on May 5. 2021, pursuant to Supreme Court Rule 28.S(c). All parties required to be served, have been served.

,d/twu~t{)~

Howard Daniels

Sworn to me this
May 5. 2021
Alessandra Kane
Notary Public, State of New York
No. DIKA8340521
Uualified in Richmond County
Com ission Expires April 18, 2024

Case Name: Fowler v. Irish
Docket/Case No. 20-1382

